                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

11   Case Number: A06120058




                   We conducted an inquiry in response to an allegation of plagiarism in an NSF proposal.' We
           contacted the PI' and COPI~  on the proposal to obtain their explanation for the 109 lines of apparently
           copied text. Because their explanations were not entirely consistent with each other, we referred the
           allegation to their university4 for a detailed investigation with respect to both the PI and the CoPI.
           The university, in accordance with its policy, found no research misconduct with respect to the CoPI,
           who is a more senior faculty member than the PI. The CoPI had provided primarily editorial
           assistance on the proposal which the PI had prepared.

                   The university made a finding of research misconduct against the PI, who was in his first
           faculty appointment. The university took the following actions: placed a letter of reprimand in the
           PI'S personnel file to be expunged in 3 years; required the PI to certify to the research compliance
           officer and his department chair.for 3 years that externally submitted manuscripts and proposals do
           not contain research misconduct; required the PI to take 10 hours of related ethics training; and
           participate in a workshop on research misconduct. We reviewed the university report and concurred
           with its findings for both the CoPI and PI. We provided our assessment and recommendations to
           NSF (attached). NSF accepted out recommendations and made a finding of research misconduct
           (attached).




 NSF OIG Form 2 ( 1 1/02)
                                  NATIONALSCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




     OFFICE OF THE
    DEPUlY DIRECTOR




VIA CERTIFIED MAIL -RETURN RECEIPT REQUESTED




       Re: Notice of Research .MisconductDetermination

Dear ~ r . m




Office of Inspector General ("OIG"), this proposal contained plagiarized text.


Research Misconduct and Actions Taken

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research finded by NSF ..." 45 CFR $689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, resultsorword~
without giving appropriate credit,." 45 CFR$ 689'.1(a)(3). A finding of research misconduct
requires that:

       (1)     There be a significantdeparture fiom accepted practices of the relevant research
               community; and
        (2)    The research misconduct be committed intentionally, or knowingly, or recklessly;
               and    .,



        (3)    The allegation be proven by a preponderance of evidence.

45 CFR $689.2(c).

In your proposals, you copied text fiom multiple sources without providing proper attribution for
such material. By submitting proposals to NSF that copy the ideas or words of another without
adequate attribution, as described in the OIG Investigative Report, you misrepresented someone
                                                                                             Page 2
else's work as your own. Your conduct unquestionably constitutes plagiarism. I therefore .
conclude that your actions meet the definition of "research misconduct" set forth in NSFys
regulations.

Pursuant to NSF regulations, the Foundation must also determine whether to make afinding of
misconduct based on a preponderance of the evidence. 45 CFR 8 689.2(c). After reviewing the
Investigative Report and the University's report, NSF has determined that, based on a
preponderance of the evidence, your misconduct was knowing and constituted a significant
departure from accepted practices of the relevant research community. I am, therefore, issuing a
finding of research misconduct against you.

NSF's regulations establish three categories of actions (Group I, II, and III)that can be taken in
response to a finding of misconduct. 45 CFR 8 689.3(a); Group Lactions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
 that an institution or individual obtain special prior approval of particular activities from NSF;
,and requiring that an i,mtitutionalrepresentative certifL as to the accuracy of reports or
 certificationsof coinpliance with particular requirements. .45 CFR 8 689.3(a)(l). Group Il
 actions include award -suspensionor restrictions on designated activities or expenditures;
 requiring special reviews of requests for funding; and requiring correction to the research record.
 45 CFR 4 689,3(a)(2). Group III actions include suspension or termination of awards;
 prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
 suspdnsion fiom participation in NSP programs. 45 CFR 5 689.3(a)(3).

In determining the severity of the sanctio'n to impose for research misconduct, I have'considered
the seriousness of themisconduct; our determination that it was committed knowingly; the
determination that it was an isolated in~ide&;,~our  cooperation during the investigation; and the
fact that your conduct did not have an impact -onthe published research record. I have also.
considered other relevant circwnstances. 45 CFR 689.3 (b).

1 find your plagiarism to be serious because the amount of text that you copied was substantial.
However, your conduct did not have a significant impact on the research record, and it was an
isolated incident, as opposed'to being part of a pattern of misconduct.



        From the date of this letter through April 15,2010, you are required to certify that
        proposals or reports you submit to NSF do not contain plagiarized, falsified, or fabricated
        material. Such certifications should be sent to the OIG, 4201 Wilson Boulevard,
        Arlington, VA 22230.

        From the date of this letter through April 15,2010, you are required to submit assurances
        by a responsible official of your employer that any proposals or reports you submit to
        NSF do not contain plagiarized, falsified, or fabricated material; Such assurances should
        be sent to the OIG.
                                                                                                Page 3
                                                                  0 , are prohibited fiom serving as an
       From the date of this letter through ~ ~ r i l l 5 , 2 0 1you
       NSF reviewer, advisor, or consultant.

       You are required to certify to the OIG that you have taken the,research ethics training
       prescribed by the University before submitting any proposals to NSF on which you are
       the PI or co-PI.


Procedures Governing Appeals

Under NSFYsregulations, you have 30 days after receipt of this letter to submit ,an appeal of this
decision, in writing, to the Director of the Foundation. 45 CFR 5 689.10(a). Any appeal should
be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive you. appeal within the 30-day period, this
decision will become final. For your information we are attaching a copy of the applicable . .
regulations. If you have any questions about .the foregoing, please contact              Assistant
~eneral'counsel,at (703) -292-8060.




                                                        Sincerely,



                                                        Kathie L. Olsen
                                                        Deputy Director



Enclosures
- Investigative Report
- 45 C.F.R. Part 689
    National Science Foundation
    Office of Inspector General




                    Confidential
                Investigation Report
              Case Number A06120058
                       14 November 2007


This Confidential Investigation Report is the property of the NSF OIG and may be disclosed outside
   NSF only by O I G under the Freedom of Information and Privacy Acts, 5 U.S.C. $$552,552a.

                                                                                 NSF OIG Form 22b (1 1/06)
CONFIDENTIAL                                                         CONFIDENTIAL


                               Executive Summary
Allegation:     Plagiarism of 109 lines of text into one NSF proposal.

OIG             OIG reviewed the proposal and source documents and contacted the PI
Inquiry:        (the Subject) and CoPI for their perspectives. OIG determined there
                was sufficient need for a full investigation and referred the matter to
                the University.

University      The Committee determined by a preponderance of the evidence that
Investigation   the Subject was solely responsible for knowingly copying material into
and Action:     the proposal, which was a significant departure from accepted
                practices.

                The University concurred, requiring: 1) a letter of reprimand be
                placed in the Subject's personnel file for three years; 2) the Subject
                submit certifications that "manuscripts, proposals, etc. submitted
                externally" for three years to his department head and the Director of
                Research Protections; 3) the Subject schedule training in proper
                referencing and citing by 30 November 2007 and complete 10 hours of
                approved training by 30 April 2008; and 4) participate in a workshop
                on the responsible conduct of research.

OIG's           OIG concurs with the University's assessment.
Assessment:
                       The Act: The Subject copied 109 lines into his NSF proposal.
                       Intent: The Subject acted knowingly.
                       Standard of Proof: The preponderance of the evidence
                       supports the conclusion that the Subject committed plagiarism.
                       Significant Departure: The Subject's plagiarism was a
                       significant departure from the accepted practices of his
                       research community.
                       Pattern: The Subject's body of written work does not
                       establish an evidentiary basis to support a pattern of plagiarism.

OIG Recommends:
                       send a letter of reprimand to the Subject informing him that
                       NSF has made a finding of research misconduct;
                       require the Subject to certify to the Associate Inspector General
                       for Investigations (AIGI) completion of research ethics training
                       prescribed by the University before submitting any proposals to
                       NSF on which he is the PI or CoPI;
                       require the Subject to certify each time he submits a proposal
                       or report to NSF that the proposal or report does not contain
                       plagiarized, fabricated, or falsified material for 2 years
                       commencing with the date of NSF's finding of research
                       misconduct;
CONFIDENTIAL                                                CONFIDENTIAL


               require the Subject submit assurances by a responsible official
               of his employer each time he submits a proposal or report to
               NSF that the proposal or report does not contain plagiarized,
               fabricated, or falsified material for 2 years commencing with
               the date of NSFYsfinding of research misconduct; and
               bar the Subject from serving as a NSF reviewer, advisor, or
               consultant for a period of 2 years commencing with the date of
               NSF' s finding of research misconduct.
CONFIDENTIAL                                                                         CONFIDENTIAL

                                              OIG's Inauiry

        The National Science Foundation (NSF) Office of Inspector General (OIG)
conducted an inquiry into an allegation that a proposal (the ~ r o ~ o s a lcontained
                                                                             )'
plagiarized material. Our analysis of the Proposal identified 109 lines of text apparently
copied from five source^.^

        We contacted both the PI^>^ (the Subject) and the C O P I about
                                                                     ~ ~ ~the allegation.
Both provided r e ~ ~ o n s e sThe
                               . ~ ~Subject
                                    *       did not deny that he copied the text without
attribution, and apologized for the "errors . . . none [of which] were intentional, but
purely accidental." He also offered more recent versions of Sources B through D. lo
His response did not address his CoPI's role in the preparation of the proposal. In her
response, the CoPI denied any responsibility for the copied text and included an excerpt
of an email purportedly from the Subject in which the Subject appeared to take full
responsibility for the copying. "

       We reviewed the responses and concluded that there was sufficient evidence to
warrant a detailed investigation, and referred the matter to the University.12'13

                          The Universitv's Inauirv and investigationu

       After completing a separate inquiry as its policies and procedures required, 15'16
the University initiaited an investigation and assembled an ad hoc committee (the
Committee). At the Committee's request, the Subject provided a copy of his dissertation,
which was completed at a different instit~tion,'~  and copies of recent publications and




   The Subject's response to the inquiry letter, Tab 5.
   The CoPI's response to the inquiry letter, Tab 6.
   Tab 5, page 1 and page 1 of attachment to email.
l o Tab 5, pages 1 - 2 of attachment to email.
' I Tab 6, page 1 of attachment to email.
12

l3 OIG investigation referral to the University, Tab 7.
l4 The University canied out an inquiry and investigation in which both the Subject and the Cop1 were
treated as subjects in order to resolve clearly the contributions each made to the Proposal. Because the
CoPI was ultimately cleared of any wrongdoing in this matter, our investigation report focuses primarily on
the role of the Subject.
   The University Policies and Procedures, Tab 8.
CONFIDENTIAL                                                                          CONFIDENTIAL


proposals for an analysis of a pattern of copying. " The Committee also interviewed the
                         ~ ~ the Subject's department hair man.^'
subject,I9 the C O P I , and

       The Committee determined that the CoPI had only a limited role in commenting
on the Proposal draft during the week before its submission to NSF. The CoPI had
recommended to the Subject that he delay submission of the Proposal because of her
concerns about the quality of the ~ r o ~ o s aThe
                                                l . ~CoPI
                                                      ~ appeared to make no direct
additions to the text provided to her by the Subject.

         The Committee determined that the Subject copied the text in question and was
aware of the appropriate means of citing the work of others.23 The Committee also found
that the Subject had "reasoned that his English was not good, so he planned to use the
text as guidance while rewriting the material."24 Although English is the Subject's
second language, the Committee determined that his dissertation, writings, and interview
all demonstrated that he understood the need to cite source materials as well as how to do
so.25 The Subject admitted to copying the text asserting his intention to rewrite those
sections later but that he lost track of what text was not his original       The
Committee did not find this line of reasoning to be a credible excuse because: 1) "his own
work must have been well written to be indistinguishable from the work of other senior
professors"; and 2) "this excuse contradicts the reason he offered for the plagiarism in his
letter to NSF [OIGI-which was to help strengthen his writing skills."27

         The Committee also found that "the copied material was organized in such a way
that it appears to be some intent to maintain the material as is [ s i ~ ] " ~and
                                                                               ' that the Subject
knew "his notes contained a substantial amount of material from other sources, yet [he]
did not make the required effort to identify that material and document it properly."29
Thus, the Committee concluded that the Subject acted knowingly.

       Relying on the Subject's demonstrated knowledge of citation in his dissertation
and the interview with the department chairmanY3O  the Committee also concluded that the
Subject's actions were a significant departure from the practices of the relevant research
community.31



18
   These items have not been included in the appendixes to this report but are available on request.
l9 The Subject's interview transcript, Tab 10.
20 The CoPI's interview transcript, Tab 11.
21
   The Department Chairman's interview transcript, Tab 12.
22 The Committee's Investigation Report, Tab 13, page 3.
23 Tab 13, page 4.
24 Tab 13, page 5.
25 Tab 13, pages 3 - 5.
26 Tab 13, page 5.
27 Tab 13, page 5.
28 Tab 13,pageS.
29 Tab 13, page 5.
30 Tab 13, page 3. See also, Tab 12, page 6 of transcript.
31 Tab 13, page 5.
CONFIDENTIAL                                                                       CONFIDENTIAL

       The Committee concluded that the Subject had committed plagiarism knowingly
in the Proposal by a preponderance of the evidence and that the Subject's actions were a
significant departure from the practices of the relevant research community. The
Committee concluded that the Subject had committed research misconduct and made
recommendations for sanctions.32


        The Subiect's Response to the University's Draft Investigation Report

        The Subject provided a response to the University's Investigation Report
addressing two main points: 1) his abilities with English, and 2) the Committee's
conclusion regarding the level of intent.33 The Subject correctly pointed out that an NSF
reviewer had noted: "The paper is poorly written, and the English is very poor at
times."34 The Subject also quotes material OIG supplied to the Committee regarding
intent, specifically a sidebar discussion of the levels of intent published in OIG's
Semiannual Report to the Congress umber 9 (September 1 9 9 3 ) . ~The     ~ Subject also
relied on an online ethics essay to argue that his actions were careless.36 Using these two
sources, the Subject contends that the Committee should have interpreted NSF's
definition of reckless as "a serious deviation and likely to result in serious injury or
damage" and because his actions were not reckless, his actions were careless.37

       The Committee did not alter its draft report in response to the Subject's comments
but added its recommended sanctions in the final report.

                        The University's Action Against the Subject

       The University's Deciding official3' upheld the Committee's finding and
accepted its recommendations, which included:

     1. A letter of reprimand be placed in the Subject's personnel file for three years;

     2. The Subject provide a written certification that "all manuscripts, grant proposals,
        etc. submitted to external sources are fiee of plagiarism" to the Director of
        Research Protections and a copy to his department chairman for a period of three
        years;

     3. The Subject schedule a meeting with a designated Educational Specialist by 30
        November 2007 to review proper referencing and citation;


32 Tab 13, page 6.
33 The Subject's Response to the Committee's Draft Investigation Report, Tab 14.
34 Tab 14, page 1 of attachment to email.
35 Tab 14, page 3 of attachment to email.
36 Tab 14, page 3 of attachment to email.
37 Tab 14, page 3 of attachment to email.
38
CONFIDENTIAL                                                                          CONFIDENTIAL

     4. The Subject submit documentation to demonstrate completion of 10 hours of
        training in the responsible conduct of research; and

     5. The Subject participate as an organizer or presenter in a workshop on the
        responsible conduct of research covering the "risks of plagiarism in the
        technology age" as approved by the Director of Research ~ r o t e c t i o n s . ~ ~

                                          OIG's Assessment

        We notified the Subject that we had received the Committee's report and offered
him the opportunity to respond with any additional comments.40 He provided us with an
additional copy of his response to the Committee's draft report, reiterating his contention
that he had acted carelessly in preparing the

       We reviewed the Committee's report and the University's conclusions and
determined that the Committee's investigation was accurate and complete in accordance
with reasonable procedures.42

       A finding of misconduct requires that (1) there be a significant departure from
accepted practices of the relevant research community, (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proven by
a preponderance of the evidence.43

                                                  The Act

       The Subject admitted to copying the identified text from sources written by other
authors.44 He has not disputed the fact that the text was copied at any point during our
consideration of the allegation. We concur with the Committee's assessment that such
copying is a significant departure from the accepted practices of the relevant research
community.

                                                   Intent

        The evidence supports that the Subject acted knowingly. The Subject reiterated to
us his response to the Committee's draft report that his actions were careless.45 We
disagree with the Subject's conclusion and rationale.



39  The University Deciding Official's letter to the Subject, Tab 15.
40  Tab 16.
4 ' Tab 17.
42 45 C.F.R. 689.9.
43 45 C.F.R. 689.2(c).
    Tab 5, page 1 of of attachment to email and Tab 10, pages 6 - 7 of transcript.
45 Tab 17, pages 1 - 3. As described above, he defined reckless as "a serious deviation and likely to result
in serious injury or damage." (Tab 14, page 3 of attachment to email.) He concluded that because his
actions did not rise to recklessness, they were careless.
CONFIDENTIAL                                                               CONFIDENTLAL

        The Subject admittedly engaged in copylcut-and-pastecopying from electronic
source d o c ~ r n e n t s .This
                             ~ ~ form of copying is in itself a knowing act given the physical
actions necessary to identify the source text, highlight it electronically, and copylcut-and-
paste the text into the new document. Similarly, the Subject admitted to writing or typing
material from non-electronic sources into his notes without proper a t t r i b ~ t i o n .Those
                                                                                          ~~
notes were subsequently incorporated into the Proposal. The sequence of steps involving
manually copying material also comprise a knowing act of copying another's text into a
new document and ultimately the Proposal.

                                         Standard of Proof

       The preponderance of the evidence shows that the Subject knowingly plagiarized
109 lines from five sources into the Proposal, which is a significant departure from
accepted practices in the relevant research community. Therefore, we conclude that the
Subject committed research misconduct.

                                  OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct,
NSF must
consider:
             (1) How serious the misconduct was; (2) The degree to
             which the misconduct was knowing, intentional, or
             reckless; (3) Whether it was an isolated event or part of a
             pattern; (4) Whether it had a significant impact on the
             research record, research subjects, other researchers,
             institutions or the public welfare; and (5) Other relevant
                  circumstance^.^^
                                            Seriousness

         The Subject's actions in this case appear limited to the Proposal. He is presently
in his first faculty position following his dissertation and has prepared few peer reviewed
documents, whether proposals or journal articles. Recognizing some limitation in his
abilities with English, he sought help from at least one other faculty member (the CoPI)
one week before submitting the Proposal, but disregarded her advice to wait for
submission during a later round. No one else was acting as a mentor to the Subject at that
time. Although the Proposal was declined, his actions impacted at least one other person
directly (i.e., the CoPI) as well as the institution.




46 Tab 10,page 6 of transcript.
47 Tab 10,page 6 of transcript.
48 45 C.F.R. 689.3@)
CONFIDENTIAL                                                                    CONFIDENTIAL

                            Degree to which the Act was Knowinq

       As described above, the Subject's intent was knowing and not merely careless as
the Subject contends. The Committee noted that the Subject's dissertation, other
writings, and interview demonstrated his understanding for the need to provide
appropriate credit for another's work.

        The Subject's biographical sketch in the Proposal indicates that he is a referee for
                                 published by T N F O R M Sand
                                                             ~~
                            published by the Institute of Electrical and Electronic
Engineers (IEEE). Neither journal nor publisher appears to have an explicit statement on
citation, referencing, or plagiarism. The IEEE Editorial Style ~ a n u a l " and the IEEE
Transactions, Journals, and Letters Information for ~uthor" address only the editorial
mechanics of citations format.

        The Subject's publication record as reported in the biographical sketch is small,
consisting primarily of coauthored publications with his graduate mentor and coauthored
manuscripts "to be submitted." His only sole authorship work listed is his dissertation
(nominated for an annual best dissertation award). It is this body of work that the
Committee relied on to determine that the Subject knew appropriate citation practices and
requirements.

       Although the absence of a direct position on plagiarism or ethics from these
professional organizations may be mitigating factors, we concur with the University's
conclusion that the Subject acted knowingly.

                                       Pattern o f Behavior

        Because the Subject has had few publication and proposal submissions since
completing his dissertation, there is insufficient evidence to determine whether the
plagiarism in the Proposal is part of a larger pattern of behavior.

                                Impact on the Research Record

           The evidence shows no impact on the research record.

                                        Recommendations

           Based on the evidence, OIG recommends that NSF:

           send a letter of reprimand to the Subject informing him that NSF has made a
           finding of research misconduct;


49           Systems Research Editorial Statement and Submission Guidelines, Tab 18.
     Information
  IEEE Editorial Style Manual, Tab 19.
" IEEE Transactions, Journals, and Letters Information for Author, Tab 20.
CONFIDENTIAL                                                            CONFIDENTIAL


       require the Subject to certify to the Associate Inspector General for Investigations
       (AIGT) completion of research ethics training prescribed by the University before
       submitting any proposals to NSF on which he is the PI or CoPI;

       require the Subject to certify to the AIGI each time he submits a proposal or
       report to NSF that the proposal or report does not contain plagiarized, fabricated,
       or falsified material for 2 years commencing with the date of NSF's finding of
       research misconduct;

       require the Subject submit to the AIGI assurances by a responsible official of his
       employer each time he submits a proposal or report to NSF that the proposal or
       report does not contain plagiarized, fabricated, or falsified material for 2 years
       commencing with the date of NSF's finding of research misconduct; and

       bar the Subject from serving as a NSF reviewer, advisor, or consultant for a
       period of 2 years commencing with the date of NSF's finding of research
       misconduct.


           The Subiect's Response to OIG's Draft Investigation ~ e p o r t ~ ~

        The Subject responded to out draft investigation report. He addressed his level of
intent, stressing that his actions were not knowing with respect to the Proposal and that
copying into his notes was distinctly different from copying into the final version of the
submitted Proposal. The Subject's response does not alter our analysis in light of the
preponderance of the evidence.
